                       Annual Assessment of the
                Business Systems Modernization Program

                                    June 2004

                       Reference Number: 2004-20-107




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       June 3, 2004


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Annual Assessment of the Business
                                    Systems Modernization Program (Audit # 200420012)


       This report presents the results of our Annual Assessment of the Business Systems
       Modernization (BSM) program. The overall objective of this review was to assess the
       progress of the BSM program for Fiscal Year (FY) 2004 as required by the Internal
       Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98).1 The RRA 98
       requires the Treasury Inspector General for Tax Administration (TIGTA) to annually
       evaluate the adequacy and security of the IRS’ information technology.
       In summary, the IRS and the PRIME contractor2 have deployed projects that provide
       value to taxpayers and have built the infrastructure needed to support these projects. In
       addition, the IRS has developed an enterprise architecture to guide the BSM program.
       While progress is being made, the IRS and its contractors have drawn increased
       criticism due to continuing schedule delays and cost increases. As a result, pressure
       has been mounting from various oversight groups to deliver a successful program. In
       addition to our reports and Congressional testimony, the General Accounting
       Office (GAO) testified that recently identified weaknesses were consistent with previous




       1
         Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
       16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
       2
         The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
       companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
       information technology.
                                                     2

GAO findings.3 Also, in December 2003, the IRS Oversight Board released a special
report detailing actions the IRS and the PRIME contractor need to take to succeed.4
To obtain fresh and independent assessments from outside experts on the health of the
BSM program, the IRS launched a comprehensive review consisting of three studies
and a BSM benchmarking analysis. In addition, the PRIME contractor launched an
internal study. The studies resulted in 21 recommendations for improvement in the
BSM program, 15 of which are similar to those made in TIGTA reports issued during the
past 3 years. In several instances, the principal recommendations were reported
multiple times during this period. Since many of the prior TIGTA recommendations
have resurfaced as part of the recent studies, we conclude that BSM weaknesses
continue to exist and that the IRS and its contractors need to complete planned
corrective actions to address the root causes identified in the studies.
Over the past 2 fiscal years, we have cited 4 primary challenges the IRS and its
contractors must overcome to be successful: 1) implement planned improvements in
key management processes and commit necessary resources to enable success,
2) manage the increasing complexity and risks of the BSM program, 3) maintain the
continuity of strategic direction with experienced leadership, and 4) ensure PRIME
contractor performance and accountability are effectively managed. Based on the
results of recent TIGTA audits, as well as the study findings, we believe these four
challenges still need to be met to achieve program success.
In addition to these four challenges, the TIGTA, GAO, and IRS Oversight Board have
expressed concerns over the IRS’ ability to effectively manage its portfolio of projects.
While the IRS responded to this concern by scaling back the scope and number of
projects in FY 2003, we noted the FY 2004 BSM plan includes an additional
modernization project. Since the IRS and its contractors have been unable to deliver
the scaled-back portfolio of projects on time and within cost, we continue to be
concerned that the IRS and its contractors may not have the ability to successfully
manage the BSM portfolio.
To address the results of the recent studies, the IRS and the PRIME contractor have
developed and are implementing a 46-point action plan, known as the BSM Challenge
Plan, designed to address the 21 BSM-related study recommendations. While the
46 planned corrective actions should help improve the BSM program, it will take time to
institutionalize new processes and ensure they are being followed. Only at that time will
it be possible to determine if the actions have effectively addressed the four major
challenges.
Management’s Response: The Chief Information Officer (CIO) responded that our
annual assessment of the BSM program was fair and balanced. In addition, the CIO
provided a brief recap of the BSM program’s progress and struggles over the past year.


3
  Business Systems Modernization: Internal Revenue Service Needs to Further Strengthen Program Management
(GAO-04-438T, dated February 2004).
4
  Independent Analysis of IRS Business Systems Modernization (dated December 2003).
                                                      3

The CIO stated that the BSM program has built a strong technical infrastructure,
developed the Enterprise Life Cycle (ELC)5 methodology, worked toward maturing the
management processes, and delivered projects that are providing tangible benefits to
taxpayers and improving the efficiency and effectiveness of the IRS’ tax administration
systems (a table listing the projects and benefits delivered to date was attached). In
addition, the CIO stated that a fundamental change was needed in the agency’s
behavior to strengthen program performance due to significant cost overruns and
repeated schedule delays that have plagued critical projects and that have
demonstrated the need to stop setting overly ambitious and impractical time periods for
delivering projects.
To accomplish this culture change, the CIO stated that the IRS would ensure the
Software Engineering Institute (SEI)6 periodically reviews the Customer Account Data
Engine (CADE)7 program; a third party regularly assesses the overall health of the BSM
program; modernization efforts are scaled back to better match management capacity;
senior IRS business unit managers are held accountable for the success of
modernization efforts as it relates to business requirements; capped or fixed-price
contracts for development work are used to balance the financial risk between the
Federal Government and the contractor; and the skills of experienced IRS tax
executives are complemented with outside seasoned technology executives who have
experience managing large-scale, complex information technology projects.
Management’s complete response to the draft report is included as Appendix X.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




5
  BSM processes and procedures are documented within the ELC. See Appendix VIII for an overview of the ELC.
6
  The SEI is a Federally funded research and development center whose purpose is to help others make measured
improvements in their software engineering capabilities. The SEI recently conducted a study of the Customer
Account Data Engine (CADE) project.
7
  The CADE is the foundation for managing taxpayer accounts in the IRS’ modernization plan.
            Annual Assessment of the Business Systems Modernization Program




                                             Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service and Its Contractors Are
Making Progress........................................................................................ Page 2
The Internal Revenue Service and Its Contractors Have
Come Under Increased Scrutiny Due to Continued Schedule
Delays and Cost Increases........................................................................ Page 5
The Business Systems Modernization Program Must
Successfully Pass a Difficult Crossroads to Succeed................................ Page 8
Previously Reported Challenges Still Exist ................................................ Page 9
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Comparison of Business Systems Modernization
Recommendations to Treasury Inspector General for
Tax Administration Recommendations ...................................................... Page 15
Appendix V – Recent Treasury Inspector General for
Tax Administration Reports and Associated Findings .. ……………………Page 18
Appendix VI – Business Systems Modernization Funding Timeline .......... Page 19
Appendix VII – Schedule Delays and Cost Increases................................ Page 20
Appendix VIII – Enterprise Life Cycle Overview ........................................ Page 21
Appendix IX – Business Systems Modernization Projects
and Descriptions........................................................................................ Page 25
Appendix X – Management’s Response to the Draft Report……………….Page 27
         Annual Assessment of the Business Systems Modernization Program

                               The Internal Revenue Service (IRS) Restructuring and
Background
                               Reform Act of 19981 requires the Treasury Inspector
                               General for Tax Administration (TIGTA) to annually
                               evaluate the adequacy and security of the IRS’ information
                               technology. This report provides our assessment of the IRS’
                               Business Systems Modernization (BSM) program for Fiscal
                               Year (FY) 2004.
                               The BSM program is a complex effort needed to modernize
                               the IRS’ technology and related business processes.
                               According to the IRS, this effort will involve integrating
                               thousands of hardware and software components. All of
                               this must be done while replacing outdated technology and
                               maintaining the current tax system.
                               It is estimated that this effort will last up to 15 years and
                               cost $7 billion. The program is currently in its sixth year
                               and has been given approximately $1.6 billion to
                               accomplish its objectives. See Appendix VI for details.
                               To facilitate the success of its modernization efforts, the IRS
                               hired the Computer Sciences Corporation as the PRIME
                               contractor and integrator for the BSM program and created
                               the Business Systems Modernization Office (BSMO) to
                               guide and oversee the work of the PRIME contractor.
                               Additional contractors have been hired to supplement the
                               design and development of modernization projects.2
                               The information presented in this report is derived from
                               current and previous TIGTA and General Accounting Office
                               (GAO) audits and interviews with the appropriate BSM
                               officials. In addition, we conducted limited analyses of
                               several recent BSM studies and performance results. These
                               analyses were conducted between January and
                               March 2004. The previous audits and our limited analyses
                               were conducted in accordance with Government Auditing
                               Standards. Detailed information on our audit objective,
                               scope, and methodology is presented in Appendix I. Major
                               contributors to the report are listed in Appendix II.




                               1
                                 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                               sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                               23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                               2
                                 See Appendix IX for a list of BSM projects and descriptions.
                                                                                               Page 1
          Annual Assessment of the Business Systems Modernization Program

                                 The IRS and its contractors have deployed projects that
The Internal Revenue Service
                                 provide value to taxpayers and have built the infrastructure
and Its Contractors Are Making
                                 needed to support these projects. In addition, the IRS has
Progress
                                 developed an enterprise architecture that includes all IRS
                                 business units, processes, programs, and operations and
                                 provides details to help guide current and future
                                 modernization initiatives. In September 2003, the
                                 E-Gov Institute, the Federal Computer Week Media Group,
                                 and the Federal Enterprise Architecture Certification
                                 Institute awarded the IRS Enterprise Architecture program
                                 the “Excellence in Enterprise Architecture Leadership”
                                 award for best practices in developing and implementing a
                                 successful enterprise architecture.
                                 Some of the BSM projects that have delivered value to
                                 taxpayers are the Customer Communications, Internet
                                 Refund/Fact of Filing (IRFOF), Internet Employer
                                 Identification Number (I-EIN), e-Services, and Modernized
                                 e-File (MeF) projects.
                                 •   Customer Communications – The Customer
                                     Communications project has improved customer service
                                     by increasing the capacity of the toll-free telephone
                                     system and providing the ability to route taxpayers’ calls
                                     to the appropriate IRS employees. This project became
                                     operational in August 2001.
                                 •   IRFOF – This application (also known as “Where’s My
                                     Refund?”) offers improved customer self-service by
                                     providing refund status information via the Internet.
                                     The pilot version of the “Where’s My Refund?”
                                     application was deployed in May 2002. The application
                                     was upgraded in 2003 and was accessed 17.9 million
                                     times that year according to the IRS. In 2003, the
                                     application was modified to provide taxpayers with
                                     Advance Child Tax Credit refund status via the Internet.
                                     The IRS has stated that 15.5 million Advance Child Tax
                                     Credit inquiries were received in 2003.
                                 •   I-EIN – The I-EIN application allows small businesses
                                     and self-employed taxpayers to obtain EINs online,
                                     eliminating the need to send paperwork to the IRS. This
                                     application was deployed in May 2003. The
                                     Commissioner recently testified that the application had
                                     processed over 450,000 applications as of
                                     February 2004.
                                                                                        Page 2
Annual Assessment of the Business Systems Modernization Program

                      •      e-Services – The initial release of the e-Services project
                             was deployed in August 2003 and allows tax
                             professionals the ability to register online, create an
                             electronic account, and apply for a Preparer Tax
                             Identification Number to use in place of their Social
                             Security Number for submitting returns. The IRS
                             reported in January 2004 that over 16,000 tax
                             professionals had applied to use the e-Services
                             application.
                      •      MeF – The MeF project is developing the modernized,
                             web-based platform for electronically filing
                             approximately 330 IRS forms. The first release of the
                             MeF project was deployed in late February 2004 and
                             provided electronic filing for 59 forms, including United
                             States (U.S.) Corporation Income Tax Return
                             (Form 1120), U.S. Income Tax Return for an
                             S Corporation (Form 1120S), Return of Organization
                             Exempt From Income Tax (Form 990), Short Form
                             Return of Organization Exempt From Income Tax
                             (Form 990-EZ), U.S. Income Tax Return for Certain
                             Political Organizations (Form 1120-POL), and
                             Application for Extension of Time To File an Exempt
                             Organization Return (Form 8868). The IRS has stated
                             that over 18,520 tax returns had been accepted by
                             March 21, 2004.
                      The IRS and the PRIME contractor have also delivered
                      infrastructure projects, such as the Security and Technology
                      Infrastructure Release (STIR).3 The STIR project was
                      initially deployed in May 2002 and was designed to provide
                      a secure technical infrastructure to support and enable the
                      delivery of the IRS’ modernized business systems. The
                      project is designed to allow taxpayers to have secure
                      Internet transactions and increases the quality and speed of
                      taxpayer interactions with the IRS.
                      In addition to the projects that have been deployed, the IRS
                      and its contractors plan to release new capabilities for
                      taxpayer and internal use in the near future. The initial
                      releases of the Custodial Accounting Project (CAP),
                      Customer Account Data Engine (CADE), and Integrated
                      Financial System (IFS) are scheduled to be deployed during

                      3
                          The STIR is now a part of the Infrastructure Shared Services program.
                                                                                        Page 3
Annual Assessment of the Business Systems Modernization Program

                      the remainder of FY 2004 and early FY 2005. The second
                      release of the MeF project is also scheduled to be deployed
                      in late FY 2004.
                      •   CAP – The CAP is being developed to provide the IRS
                          a data warehouse of detailed taxpayer account
                          information to be used for analysis and financial
                          reporting. The first release of the CAP will extract
                          taxpayer account data from the Individual Master File
                          (IMF) for the Taxpayer Account Subledger.4 The initial
                          deployment of the system is planned for Summer 2004.
                          However, as of February 2004, the full deployment date5
                          for the CAP was not known.
                      •   CADE – The initial release of the CADE will process
                          refund and even-balance Forms 1040EZ6 for single
                          taxpayers with no open tax issues. At the conclusion of
                          the fifth release (currently scheduled for deployment in
                          2009), the CADE will have replaced the IMF. While the
                          IRS and the PRIME contractor plan to deploy the initial
                          release of the CADE in August 2004,7 the Software
                          Engineering Institute (SEI)8 reported it was only
                          60 percent confident this date could be achieved,
                          although the SEI believed the PRIME contractor has the
                          technical and management talent to deliver the project.
                      •    IFS – The IRS intends to address administrative
                          financial management weaknesses by implementing the
                          IFS. The first release of the IFS will include the
                          Accounts Payable, Accounts Receivable, General


                      4
                        The IMF is the IRS database that maintains transactions or records of
                      individual tax accounts. The Taxpayer Account Subledger will be an
                      integrated data repository of taxpayer account information containing
                      detailed taxpayer account history and unpaid assessment information.
                      5
                        Full deployment refers to the point at which enterprise-wide
                      deployment has been completed and a project is transitioned to
                      operations and support.
                      6
                        Form 1040EZ is the Income Tax Return for Single and Joint Filers
                      With No Dependents. The initial release of the CADE will not process
                      Forms 1040EZ for joint filers.
                      7
                        Full deployment of the first release of the CADE is scheduled for
                      June 2005.
                      8
                        The SEI is a Federally funded research and development center whose
                      purpose is to help others make measured improvements in their software
                      engineering capabilities. The SEI recently conducted a study of the
                      CADE project.
                                                                                     Page 4
          Annual Assessment of the Business Systems Modernization Program

                                    Ledger, Budget Execution, Cost Management, and
                                    Financial Reporting activities. A future IFS release will
                                    be needed to fully resolve all administrative financial
                                    management weaknesses. The IFS project has suffered
                                    2 deployment delays to date, which leaves the project
                                    about 1 year behind its original deployment date.
                                    Currently, the initial release of the IFS is planned for
                                    deployment in October 2004.
                                •   MeF – The second MeF release is scheduled to be
                                    deployed in Summer 2004 and will add to the electronic
                                    filing system additional forms and schedules that are
                                    attached to the Forms 1120 and 1120S.
                                While progress is being made, the IRS and its contractors
The Internal Revenue Service
                                are drawing increasing criticism due to continuing schedule
and Its Contractors Have Come
                                delays and cost increases. BSM projects are taking longer
Under Increased Scrutiny Due
                                and costing more to deliver less than originally anticipated.
to Continued Schedule Delays
and Cost Increases              Table 1 depicts BSM schedule delays and cost increases as
                                of February 2004 for several major projects. See
                                Appendix VII for more details about these projects and
                                completed projects. See Appendix IX for a list of BSM
                                projects and descriptions.




                                                                                       Page 5
Annual Assessment of the Business Systems Modernization Program

                                       Table 1: Schedule Delays and Cost Increases

                                                                  Cost        Cost Variance
                            BSM              Schedule           Variance       Percentage
                           Project           Variance9        (in millions)     Change

                            CAP                To Be
                                                                 $72.1               153%
                          Release 1          Determined

                           CADE
                                             30 months           $36.8               60%
                          Release 1

                          e-Services         18 months           $86.2               196%

                            IFS                To Be
                                                                 $53.9               54%
                          Release 1          Determined

                            MeF
                                             4.5 months          $17.1               58%
                          Release 1

                      Source: GAO testimony10 and TIGTA calculations.

                      Due to schedule delays and cost increases, pressure has been
                      mounting from various oversight groups to deliver a
                      successful program. In addition to our reports and
                      Congressional testimony, the GAO has designated the IRS’
                      modernization program as high-risk and testified that
                      recently identified weaknesses were consistent with
                      previous GAO findings.10 In December 2003, the IRS
                      Oversight Board released a special report11 detailing actions
                      the IRS and the PRIME contractor need to take to succeed.
                      The Board stated that the “…IRS and its PRIME contractor
                      cannot continue to operate in a business-as-usual manner.”
                      Beginning in Calendar Year (CY) 1999, we identified major
                      challenges in the IRS’ modernization program. Recent


                      9
                        As of February 2004, the full deployment dates for the CAP and IFS
                      projects were not available. In addition, the project schedule for the
                      CADE was under review. Schedule variance is calculated based on the
                      full deployment date for the CAP Release 1, CADE Release 1,
                      e-Services, and IFS Release 1 projects. Schedule variance for the MeF
                      Release 1 project is calculated based on the proposed Milestone 4 date,
                      which occurs after the project has been initially deployed. See
                      Appendix VIII for a discussion of various milestones.
                      10
                         Business Systems Modernization: Internal Revenue Service Needs to
                      Further Strengthen Program Management (GAO-04-438T, dated
                      February 2004).
                      11
                         Independent Analysis of IRS Business Systems Modernization (dated
                      December 2003).
                                                                                       Page 6
Annual Assessment of the Business Systems Modernization Program

                      TIGTA reports continue to find significant areas for
                      improvement, such as business case development,
                      requirements management, software testing, transition
                      planning, business continuity, enterprise architecture
                      compliance, and contractor qualifications. See Appendix V
                      for a listing of recent TIGTA audit reports and associated
                      findings.
                      When the new Commissioner arrived at the IRS in
                      May 2003, the BSM program was continuing to experience
                      significant schedule delays and cost increases. The
                      Commissioner and the PRIME contractor determined they
                      needed fresh and independent assessments from outside
                      experts on the health of the BSM program. As a result, in
                      late CY 2003, the IRS launched a comprehensive review
                      consisting of three studies and a benchmarking analysis of
                      the BSM program. In addition, the PRIME contractor
                      launched an internal study.
                      •    CADE Study – The SEI conducted a study of the
                           CADE project.12
                      •    PRIME Contractor Internal Study – The Bain and
                           Company conducted an internal study of the PRIME
                           contractor.
                      •    IRS Root Cause Study – The BSMO conducted an
                           internal study of the BSM program.
                      •    High-Level Assessment of the IRS Office of
                           Procurement Study – The Acquisition Solutions,
                           Incorporated, conducted a study of the IRS’ acquisition
                           program.13
                      •    BSM Benchmarking Analysis – Due to concerns about
                           BSM program delivery in the areas of cost, schedule,
                           and performance, an independent contractor was asked
                           to compare the results of the BSM program to programs
                           of similar size and complexity in the public and private
                           sectors.
                      In February 2004, the Commissioner testified, “It’s no
                      secret that our projects have consistently run late, delivered
                      less functionality than planned, and cost significantly more


                      12
                         The CADE is the foundation for managing taxpayer accounts in the
                      IRS’ modernization plan.
                      13
                         While the main focus of the study was not on the BSM program, BSM
                      acquisition weaknesses were addressed.
                                                                                  Page 7
             Annual Assessment of the Business Systems Modernization Program

                                   than targeted.” The Commissioner also testified that he had
                                   decided to direct upcoming enforcement modernization
                                   projects to other contracts. In addition, the Commissioner
                                   stated that the IRS would carefully assess the PRIME
                                   contractor’s performance on current projects and the results
                                   of the PRIME contractor’s overall program management
                                   and integration efforts before awarding any follow-on work
                                   for existing projects.
                                   With increased criticism and mounting pressure from
The Business Systems
                                   various oversight groups, the BSM program must
Modernization Program Must
                                   successfully pass a difficult crossroads to realize its
Successfully Pass a Difficult
                                   potential. Past challenges continue to plague the program.
Crossroads to Succeed
                                   To overcome challenges and deliver a successful program,
                                   the IRS and its contractors need to effectively address
                                   persistent weaknesses.
                                   Recent study findings
                                   As mentioned previously, the IRS commissioned three
                                   studies of the BSM program in late CY 2003 and the
                                   PRIME contractor launched an internal study. Fifteen of the
                                   21 BSM-related study recommendations are similar to those
                                   made in TIGTA reports issued during the past 3 years. In
                                   several instances, the principal recommendations were
                                   reported multiple times during this period.
                                   The IRS has a process in place to respond to TIGTA
                                   recommendations with planned corrective actions and has
                                   taken steps to address many of them. Since many of the
                                   prior TIGTA recommendations have resurfaced as part of
                                   the recent studies, we conclude that BSM weaknesses
                                   continue to exist and that the IRS and its contractors need to
                                   complete planned corrective actions to address the root
                                   causes identified in the studies. See Appendix IV for a
                                   comparison of each BSM-related study recommendation to
                                   previous TIGTA recommendations.
                                   To address the results of the studies, the IRS and the PRIME
                                   contractor have developed and are implementing a 46-point
                                   action plan, known as the BSM Challenge Plan, designed to
                                   address the 21 BSM-related study recommendations. The
                                   PRIME contractor testified in February 2004 that almost
                                   two-thirds of the actions have been completed.



                                                                                          Page 8
            Annual Assessment of the Business Systems Modernization Program

                                  Recent benchmarking findings
                                  The IRS also commissioned a benchmarking analysis of the
                                  BSM program to compare BSM cost, schedule, and
                                  productivity results to programs of similar size and
                                  complexity in the public and private sectors. As of
                                  March 2004, the IRS had yet to provide a copy of the
                                  benchmarking analysis for our review. IRS personnel stated
                                  the benchmarking analysis remains under internal review.
                                  While we do not have the results of the BSM benchmarking
                                  analysis, we have reported that BSM cost and schedule
                                  estimates have been very aggressive and overly optimistic.
                                  The BSMO and its contractors have particularly struggled to
                                  develop adequate cost and schedule estimation techniques.14

Previously Reported Challenges    Over the past 2 fiscal years, our annual BSM assessments
Still Exist                       have cited 4 primary challenges the IRS and its contractors
                                  must meet to achieve program success:
                                  1) Implement planned improvements in key management
                                     processes and commit necessary resources to enable
                                     success.
                                  2) Manage the increasing complexity and risks of the BSM
                                     program.
                                  3) Maintain the continuity of strategic direction with
                                     experienced leadership.
                                  4) Ensure PRIME contractor performance and
                                     accountability are effectively managed.
                                  Although IRS management has taken a number of actions in
                                  response to recommendations from the TIGTA and GAO,
                                  recent TIGTA and study findings show these four
                                  challenges still exist. For example, the PRIME Contractor
                                  Internal study recommends that compliance with
                                  requirements definition and program management
                                  processes15 be enforced. This relates to our first challenge.
                                  In addition to these four challenges, the TIGTA, GAO and
                                  IRS Oversight Board have expressed concerns over the IRS’


                                  14
                                     The Cost and Schedule Estimation Process for the Business Systems
                                  Modernization Program Has Been Improved, but Additional Actions
                                  Should Be Taken (Reference Number 2003-20-219, dated
                                  September 2003).
                                  15
                                     BSM processes and procedures are documented within the Enterprise
                                  Life Cycle (ELC). See Appendix VIII for an overview of the ELC.
                                                                                               Page 9
Annual Assessment of the Business Systems Modernization Program

                      ability to effectively manage its portfolio of projects.
                      Specifically, the imbalance between the number and pace of
                      the BSM projects and available management capabilities
                      added significant cost, schedule, and performance risks that
                      continued to escalate as the program advanced. While the
                      BSMO responded to this concern by scaling back the scope
                      and number of projects in FY 2003, we noted the
                      FY 2004 BSM plan includes an additional modernization
                      project (Collection Contract Support – part of the Filing and
                      Payment Compliance project). Since the IRS and its
                      contractors have been unable to deliver the scaled-back
                      FY 2003 portfolio of projects on time and within cost, we
                      continue to be concerned that the IRS and its contractors
                      may not have the ability to successfully manage the BSM
                      portfolio.
                      While BSM results continue to be disappointing, the
                      BSM Challenge Plan appears to be an appropriate set of
                      actions to take at this juncture. IRS and contractor
                      management need to complete the corrective actions to
                      address the root causes identified. Vigilance in
                      implementing these corrective actions will provide the
                      BSM program the ability to address the challenges we have
                      reported to achieve program success. While the
                      46 planned corrective actions should help improve the
                      BSM program, it will take time to institutionalize new
                      processes and ensure they are being followed. Only at that
                      time will it be possible to determine if the corrective actions
                      have effectively addressed the four major challenges.
                      Management’s Response: The Chief Information Officer
                      (CIO) responded that our annual assessment of the BSM
                      program was fair and balanced. In addition, the CIO
                      provided a brief recap of the BSM program’s progress and
                      struggles over the past year.
                      The CIO stated that the BSM program has built a strong
                      technical infrastructure, developed the ELC methodology,
                      worked toward maturing the management processes, and
                      delivered projects that are providing tangible benefits to
                      taxpayers and improving the efficiency and effectiveness of
                      the IRS’ tax administration systems (a table listing the
                      projects and benefits delivered to date was attached to the
                      response). In addition, the CIO stated that a fundamental
                      change was needed in the agency’s behavior to strengthen
                                                                             Page 10
Annual Assessment of the Business Systems Modernization Program

                      program performance due to significant cost overruns and
                      repeated schedule delays that have plagued critical projects
                      and that have demonstrated the need to stop setting overly
                      ambitious and impractical time periods for delivering
                      projects.
                      To accomplish this culture change, the CIO stated the IRS
                      would ensure that:
                      •   The SEI periodically reviews the CADE program.
                      •   A third party regularly assesses the overall health of the
                          BSM program.
                      •   Modernization efforts are scaled back to better match
                          management capacity.
                      •   Senior IRS business unit managers are held accountable
                          for the success of modernization efforts as it relates to
                          business requirements.
                      •   Capped or fixed-price contracts for development work
                          are used to balance the financial risk between the
                          Federal Government and the contractor.
                      •   The skills of experienced IRS tax executives are
                          complemented with outside seasoned technology
                          executives who have experience managing large-scale,
                          complex information technology projects.




                                                                            Page 11
             Annual Assessment of the Business Systems Modernization Program

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the Business Systems
Modernization (BSM) program for Fiscal Year (FY) 2004 as required by the Internal Revenue
Service (IRS) Restructuring and Reform Act of 1998.1 To accomplish this objective, we:
I.      Determined the current condition of the BSM program by obtaining and reviewing the
        following documents:
        A. Five Treasury Inspector General for Tax Administration (TIGTA) reports issued
           during FY 2004, as of March 2004, and two previous BSM annual assessment
           reports. See Appendix V for a detailed listing of recent TIGTA reports and
           associated findings.
        B. The recent IRS Oversight Board report entitled Independent Analysis of IRS Business
           Systems Modernization.
        C. Relevant FY 2004 General Accounting Office reports.
        D. Four BSM studies.
II.     Determined the expected accomplishments for the BSM program during FY 2004 by:
        A. Obtaining the current status of the 46-point action plan, known as the
           BSM Challenge Plan.
        B. Determining the capabilities already released or planned for release during FY 2004.




1
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).



                                                                                                             Page 12
          Annual Assessment of the Business Systems Modernization Program

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Paul M. Mitchell, Senior Auditor
Van A. Warmke, Senior Auditor
Charlene L. Elliston, Auditor
Suzanne M. Noland, Auditor




                                                                                         Page 13
          Annual Assessment of the Business Systems Modernization Program

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Modernization Management OS:CIO:MM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:MM:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Associate Commissioner, Business Systems Modernization OS:CIO:B




                                                                                 Page 14
             Annual Assessment of the Business Systems Modernization Program

                                                                                                  Appendix IV


    Comparison of Business Systems Modernization Recommendations to Treasury
            Inspector General for Tax Administration Recommendations

Table 1 lists Business Systems Modernization (BSM)-related recommendations from the
following studies: Customer Account Data Engine (CADE)1 study, PRIME Contractor2 Internal
study, Internal Revenue Service (IRS) Root Cause study, and High-Level Assessment of the IRS
Office of Procurement study. Each BSM-related study recommendation was compared to
previous Treasury Inspector General for Tax Administration (TIGTA) recommendations. For
those recommendations that are similar, we list the dates of the prior TIGTA recommendations.
            Table 1: Comparison of BSM Study Recommendations to TIGTA Recommendations

                                                                     Similar to   Dates of Previous
                                Principal BSM-Related             Previous TIGTA      TIGTA
Number           Name              Recommendation                 Recommendations Recommendations
      1      CADE Study Harvest IRS business                               Yes              March 2003
                        rules.
      2      CADE Study Institutionalize system                            Yes              March 2003
                        engineering.
      3      CADE Study Validate business rules                             No
                        engines (PRIME only).
      4      CADE Study Plan for independent                                No
                        oversight.
      5      CADE Study Institutionalize                                   Yes              June 2000
                        management discipline.                                              March 2001
                                                                                            November 2001
                                                                                            March 2002
                                                                                            May 2002
                                                                                            August 2003
                                                                                            September 2003




1
  The CADE is the foundation for managing taxpayer accounts in the Internal Revenue Service’s (IRS)
modernization plan.
2
  To facilitate success of its modernization efforts, the IRS hired the Computer Sciences Corporation as the PRIME
contractor and integrator for the BSM program.
                                                                                                          Page 15
         Annual Assessment of the Business Systems Modernization Program

                                                      Similar to   Dates of Previous
                       Principal BSM-Related       Previous TIGTA      TIGTA
Number      Name          Recommendation           Recommendations Recommendations
  6      PRIME         Enforce compliance for            Yes        November 2000
         Contractor    requirements definition                      November 2001
         Internal      and program management                       March 2002
         Study         processes.                                   May 2002
                                                                    June 2003
  7      PRIME         Clarify/streamline                No
         Contractor    decision authority.
         Internal
         Study
  8      PRIME         Bolster broadly defined           Yes        November 2000
         Contractor    skill areas/personnel.
         Internal
         Study
  9      PRIME         Improve subcontractor             No
         Contractor    accountability and
         Internal      delivery by restructuring
         Study         subcontractor model.
  10     IRS Root      Increase business unit            No
         Cause Study   leadership, especially at
                       the project level.
  11     IRS Root      Strengthen BSM program            Yes        June 2000
         Cause Study   management with
                       experienced project
                       managers.
  12     IRS Root      Balance the scope of the          Yes        September 2002
         Cause Study   modernization portfolio                      September 2003
                       with IRS capacity.
  13     IRS Root      Redefine the PRIME                No
         Cause Study   contract with Computer
                       Sciences Corporation to
                       reflect desired roles.




                                                                                Page 16
            Annual Assessment of the Business Systems Modernization Program

                                                                 Similar to   Dates of Previous
                               Principal BSM-Related          Previous TIGTA      TIGTA
Number          Name              Recommendation              Recommendations Recommendations
   14       IRS Root         Better allocate                           Yes             June 2000
            Cause Study      responsibility for certain
                             BSM program
                             management functions
                             (budget, audit personnel,
                             contracting, etc.).
   15       IRS Root         Implement a “fixed-price”                 Yes             September 2002
            Cause Study      contract policy.
   16       IRS Root         Use more realistic                        Yes             March 2001
            Cause Study      assumptions for testing                                   November 2001
                             estimates/plans/schedules.                                March 2002
   17       IRS Root         Establish a rigorous                      Yes             August 2003
            Cause Study      process for requests for
                             information
                             services/change requests.
   18       IRS Root         Make diagnostic tools                     Yes             June 2000
            Cause Study      (e.g., dashboard) work.
   19       IRS Root         Streamline Modernization                  Yes             June 2000
            Cause Study      Information Technology
                             Services-wide
                             Government process for
                             entire information
                             technology portfolio.
   20       IRS Root         Request spend plan                        Yes             February 2001
            Cause Study      changes timely –
                             eliminate funding
                             “emergencies.”
   21       High-Level       Employ                                    Yes             February 2001
            Assessment       performance-based                                         March 2002
            of the IRS       acquisition more broadly.                                 September 2002
            Office of
            Procurement
            Study
Source: CADE study, PRIME Contractor Internal study, IRS Root Cause study, High-Level Assessment of the IRS
Office of Procurement study, and prior TIGTA reports.


                                                                                                    Page 17
              Annual Assessment of the Business Systems Modernization Program

                                                                                                         Appendix V


        Recent Treasury Inspector General for Tax Administration Reports and
                                Associated Findings

Table 1 lists Treasury Inspector General for Tax Administration (TIGTA) reports issued in Fiscal
Year 2004 (as of March 2004) and associated findings.
                             Table 1: Listing of Recent TIGTA Reports With Findings

         Report Title                                                     Findings
Requirements Changes and Testing    Previous business     Requirements           Significant defects
Delays Have Further Increased the   case estimates        changes were not       identified during
Costs and Delayed the Benefits of   have been             easily traceable.      late phases of
the e-Services Project              significantly                                testing took longer
(Reference Number 2004-20-036,      inaccurate.                                  than expected to
dated February 2004)                                                             resolve.

The Custodial Accounting Project    Additional focus is   Transition planning    Business              Cost increases and
Team Is Making Progress;            needed to monitor     can be improved.       continuity risks      schedule delays
However, Further Actions Should     testing results.                             need to be            persist.
Be Taken to Increase the                                                         addressed.
Likelihood of a Successful
Implementation
(Reference Number 2004-20-061,
dated March 2004)

Risks Are Mounting as the           Project testing       Projects costs are     Disaster recovery
Integrated Financial System         practices can be      increasing and some    will not be optimal
Project Team Strives to Meet an     improved.             functionality has      or fully tested
Aggressive Implementation Date                            been postponed.        before initial
(Reference Number 2004-20-001,                                                   implementation.
dated October 2003)

Oversight of the Business Systems   The Internal          The Business
Modernization Contractor Needs      Revenue Service       Systems
Improvement                         did not obtain        Modernization Office
(Reference Number 2004-20-034,      written assurance     has not implemented
dated January 2004)                 that new computer     an effective process
                                    systems will meet     to ensure qualified
                                    business              contractors work in
                                    requirements.         the Modernization
                                                          Program.

Modernized e-File Project           Ineffective           Reassessments of
Integration Difficulties Have       coordination about    defect severity did
Delayed Its Deployment              the project design    not include approval
(Reference Number 2004-20-072,      has delayed           documentation.
dated March 2004)                   deployment.

Source: TIGTA reports (see Report Title column).




                                                                                                                 Page 18
                               Annual Assessment of the Business Systems Modernization Program

                                                                                                         Appendix VI


                                       Business Systems Modernization Funding Timeline

Chart 1 depicts a timeline of the cumulative funding received by the Business Systems
Modernization (BSM) program for program management and development of business and
infrastructure projects.
                                            Chart 1: BSM Funding Timeline (dollars are cumulative)


                           $2,000

                           $1,800
                                                                                                              $1,592
                           $1,600

                           $1,400                                                                    $1,346
   Dollars (in millions)




                           $1,200
                                                                                             $968
                           $1,000

                            $800
                                                                                    $577
                            $600
                                                                          $449
                            $400
                                                        $216     $249
                            $200
                                      $35      $68
                              $0
                                    Apr 1999 Dec 1999 Mar 2000 Aug 2000 Sept 2000 Mar 2001 Oct 2001 Mar 2003 Jan 2004
                                                                          Date

Source: BSM Spending Plans and March 24, 2004, Congressional memorandum authorizing the release of funds.




                                                                                                                Page 19
               Annual Assessment of the Business Systems Modernization Program

                                                                                                Appendix VII


                                 Schedule Delays and Cost Increases

Table 1 lists schedule delays and cost increases for various Business Systems Modernization
(BSM) projects as of February 2004. Cost and schedule variances are based on the General
Accounting Office’s analysis of data contained in the Internal Revenue Service’s BSM
expenditure plans.
                Table 1: Internal Revenue Service BSM Project Cost/Schedule Variance Summary

                                                                       Reported/Revised          Schedule
                                                  Cost Variance (in    Estimated Cost (in       Variance (in
                   Project                           thousands)            thousands)            months)
Completed Projects
Security and Technology Infrastructure             +$7,553                $41,287                 +5
Release 1
Customer Communications 2001                        +5,310                 46,420                 +9
Customer Relationship Management Exam               -1,938                  7,375                 +3
Internet Refund/Fact of Filing                     +12,923                 26,432                +14
Ongoing Projects1
Modernized e-File Release 1                        +17,057                 46,303                +4.5
e-Services                                         +86,236                130,281                +18
Customer Account Data Engine (CADE)                +36,760                 97,905                +302
Release 1
Integrated Financial System (IFS) Release 1        +53,916                153,786               TBD2
Custodial Accounting Project (CAP) Release 1       +72,058                119,219               TBD2
Source: Business Systems Modernization: Internal Revenue Service Needs to Further Strengthen Program
Management (GAO-04-438T, dated February 2004).




1
    Projects ongoing as of September 30, 2003.
2
    Project schedules for the CADE, IFS, and CAP are currently under review. TBD = to be determined.
                                                                                                        Page 20
             Annual Assessment of the Business Systems Modernization Program

                                                                                                    Appendix VIII


                                     Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.

ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
    Life-Cycle Processes, which are organized into phases and subphases and address all
    domains of business change.
    Management Processes, which are organized into management areas and operate across the
    entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation (CSC), which heads an alliance of leading
technology companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the CSC during the contract period.
                                                                                                              Page 21
                                  Annual Assessment of the Business Systems Modernization Program

                                                        Enterprise Life-Cycle Processes


                                      IRS Governance and Investment Decision Management
    Management




                                                Program Management and Project Management

                                       Architectural Engineering / Development Coordination

                                                        Management Support Processes


                                                                                                     Business Processes




                                                                                                                              Operations & Support
                                                                                                             Applications
                  Vision & Strategy




                                                         Development
                                         Architecture




                                                                                     Deployment
                                                                       Integration
    Life Cycle




                                                                                                                     Data


                                                                                                  Organizational Change


                                                                                                  Technical Infrastructure


                                                                                                  Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
•                Vision and Strategy - This phase establishes the overall direction and priorities for
                 business change for the enterprise. It also identifies and prioritizes the business or system
                 areas for further analysis.
•                Architecture - This phase establishes the concept/vision, requirements, and design for a
                 particular business area or target system. It also defines the releases for the business area
                 or system.



                                                                                                                                                 Page 22
           Annual Assessment of the Business Systems Modernization Program

•      Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
•      Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
•      Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
•      Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.

Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
•      IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
•      Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
•      Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.



                                                                                           Page 23
           Annual Assessment of the Business Systems Modernization Program

•      Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of system development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
•      Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
•      Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.
•      Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
       leading up to Milestone 3, the major components of the business solution are analyzed
       and designed. A baseline business case is also produced. The primary decision at
       Milestone 3 is to accept the logical system design and associated plans and to authorize
       funding for development, test, and (if chosen) pilot of that solution.
•      Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
       In the activities leading up to Milestone 4, the business solution is built. The system is
       integrated with other business systems and tested, piloted (usually), and prepared for
       deployment. The primary decision at Milestone 4 is to authorize the release for
       enterprise-wide deployment and commit the necessary resources.
•      Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
       activities leading up to Milestone 5, the business solution is fully deployed, including
       delivery of training on use and maintenance. The primary decision at Milestone 5 is to
       authorize the release of performance-based compensation based on actual, measured
       performance of the business system.

                                                                                           Page 24
            Annual Assessment of the Business Systems Modernization Program

                                                                                                    Appendix IX


               Business Systems Modernization Projects and Descriptions

The following is a partial listing of Business Systems Modernization projects.
Custodial Accounting Project (CAP) – The CAP will be a single, integrated data repository of
taxpayer account information, integrated with the general ledger1 and accessible for management
analysis and reporting. The first release of the CAP will extract taxpayer account data from the
Individual Master File (IMF) for the Taxpayer Account Subledger.2
Customer Account Data Engine (CADE) – The CADE is the foundation for managing
taxpayer accounts in the Internal Revenue Service’s (IRS) modernization plan. It will consist of
databases and related applications that will replace the IRS’ existing Master File processing
systems and will include applications for daily posting, settlement, maintenance, refund
processing, and issue detection for taxpayer tax account and return data.
Customer Account Management (CAM) – The CAM will deliver an enterprise solution to
support access to tax account data, contact management, case management, outbound
correspondence management, and workflow management.
Customer Communications (CC) – The CC project has improved customer service by
increasing the capacity of the toll-free telephone system and providing the ability to route
taxpayers’ calls to the appropriate IRS employees.
Customer Relationship Management (CRM) Exam – The CRM Exam project provides a
commercial off-the-shelf software solution to Large and Mid-Size Business Division revenue
agents, which will allow them to accurately compute complex corporate transactions.
e-Services – The e-Services project provides a set of web-based business products as incentives
to third parties to increase electronic filing, in addition to providing electronic customer account
management capabilities to all businesses, individuals, and other customers.
Enterprise Systems Management (ESM) – The ESM project was designed to improve the
availability and performance of IRS modernized information technology by providing
management capabilities for the computer systems and networks.3 These capabilities include
monitoring of all IRS computer systems and networks to ensure they are consistently available to
the employees relying on them and the consolidation of 19 help desks throughout the IRS into a
single help desk to better serve the users of the systems and networks.


1
  A general ledger is a set of accounts used to summarize an organization’s financial transactions by transaction type
(e.g., cash receipts, accounts receivable, or rental expenses).
2
  The IMF is the IRS database that maintains transactions or records of individual tax accounts. The Taxpayer
Account Subledger will be an integrated data repository of taxpayer account information containing detailed
taxpayer account history and unpaid assessment information.
3
  The ESM project is now a part of the Infrastructure Shared Services program.
                                                                                                             Page 25
              Annual Assessment of the Business Systems Modernization Program

Filing and Payment Compliance (F&PC) – The F&PC project will provide support for
detecting, scoring, and working nonfiler cases (filing compliance) and delinquency cases
(payment compliance).
Integrated Financial System (IFS) – The IFS is intended to address administrative financial
management weaknesses. The first release of the IFS will include the Accounts Payable,
Accounts Receivable, General Ledger, Budget Execution, Cost Management, and Financial
Reporting activities. A future IFS release will be needed to fully resolve all administrative
financial management weaknesses.
Internet Employer Identification Number (I-EIN) – The I-EIN application allows small
businesses and self-employed taxpayers to obtain EINs online, eliminating the need to send
paperwork to the IRS.
Internet Refund/Fact of Filing (IRFOF) – The IRFOF project improves customer self-service
by providing instant refund status information and instructions for resolving refund problems to
taxpayers with Internet access.
Modernized e-File (MeF) – The MeF project develops the modernized, web-based platform for
filing approximately 330 IRS forms electronically, beginning with the United States (U.S.)
Corporation Income Tax Return (Form 1120), U.S. Income Tax Return for an S Corporation
(Form 1120S), and Return of Organization Exempt From Income Tax (Form 990). The project
serves to streamline filing processes and reduce the costs associated with a paper-based process.
Security and Technology Infrastructure Release (STIR) – The STIR project is designed to
provide a secure technical infrastructure to support and enable the delivery of the IRS’
modernized business systems.4
Work Management (WM) – The WM project will select and integrate software applications to
improve the IRS’ ability to manage, allocate staffing resources, and track workload more
effectively.




4
    The STIR is now a part of the Infrastructure Shared Services program.
                                                                                           Page 26
Annual Assessment of the Business Systems Modernization Program

                                                            Appendix X


          Management’s Response to the Draft Report




                                                                  Page 27
Annual Assessment of the Business Systems Modernization Program




                                                                  Page 28
Annual Assessment of the Business Systems Modernization Program




                                                                  Page 29
Annual Assessment of the Business Systems Modernization Program




                                                                  Page 30
Annual Assessment of the Business Systems Modernization Program




                                                                  Page 31
Annual Assessment of the Business Systems Modernization Program




                                                                  Page 32
